No. _______

In The

Supreme Court of the United States
ROBERT LEIGH STOLTZ,
Petitioner,

v.

COMMONWWEALTH OF VIRGINIA,
Respondent.

On Petition for Writ of Certiorari
to the Supreme Court of Virginia

APPENDIX

Jonathan P. Sheldon
Counsel of Record
Sheldon & Flood, PLC
10621 Jones Street
Suite 301-A
Fairfax, Virginia 22030
Tel. (703) 691-8410
Fax (703) 251-0757
jsheldon@SFHdefense.com

Thomas B. Walsh
Petrovich & Walsh, PLC
10605 Judicial Drive
Suite A-5
Fairfax, Virginia 22030
(703) 934-9191
(703) 934-1004
tw@pw-lawfirm.com

Attorneys for Petitioner
LANTAGNE LEGAL PRINTING
801 East Main Street Suite 100 Richmond, Virginia 23219 (800) 847-0477

APPENDIX:
Supreme Court of Virginia Opinion, filed
August 1, 2019.................................................... App. 1

App. 1
VIRGINIA:
In the Supreme Court of Virginia held at the
Supreme Court building in the City of
Richmond on Thursday the 1st day of August
2019.
Present: All the Justices
Record No. 181033
Court of Appeals No. 0352-17-4
Robert Leigh Stoltz, Appellant,
against
Commonwealth of Virginia, Appellee.
Upon an appeal from a judgment rendered by the
Court of Appeals of Virginia.
Robert Leigh Stoltz challenges his conviction
for violating Code § 18.2-374.3(C) by using a
computer for the purpose of soliciting a minor. Stoltz
claims that the statute is both vague and overbroad,
thus violating his freedom of speech and his due
process rights under the First and Fourteenth
Amendments of the United States Constitution. The
trial court and the Court of Appeals disagreed with
Stoltz, as do we.
I.
“On appeal, we review the evidence in the
‘light most favorable’ to the Commonwealth, the
prevailing party in the trial court.” Commonwealth
v. Perkins, 295 Va. 323, 323 (2018) (per curiam)

App. 2
(citation omitted). “Viewing the record through this
evidentiary prism requires us to ‘discard the
evidence of the accused in conflict with that of the
Commonwealth, and regard as true all the credible
evidence favorable to the Commonwealth and all fair
inferences to be drawn therefrom.’” Id. at 323-24
(citation omitted).
So viewed, the record shows that in 2014, the
Fairfax County Police Department operated a Child
Exploitation Unit (“CEU”) dedicated to, among other
things, investigating “solicitations of minors by
adults using the [I]nternet as the main source of that
solicitation.” 1 J.A. at 272-73. Working in an
“undercover capacity,” CEU detectives would pose as
minors and appear on websites “looking for potential
child predators.” Id. at 273-74. In November 2014, a
CEU detective posed as a 13-year-old girl named
Annie and accessed the Casual Encounters webpage
of Craigslist. At that time, the Casual Encounters
webpage allowed individuals to post advertisements
seeking casual, anonymous sex. A notification on
that webpage stated that only adults could use it,
but, as the detective testified, “there’s no verification
of any kind” because the user does not “have to
provide a name, an email address, [or] an
identification. So it’s open to everybody.” Id. at 27576. Based upon his prior “training and experience
with child exploitation investigations,” the detective
knew that minors accessed the Casual Encounters
webpage of Craigslist. Id. at 276-77.1
This webpage on the Craigslist website has been the source of
numerous child-solicitation cases. See, e.g., United States v.
Rocha, No. 2:13-cr-00269-LDG (GWF), 2014 WL 6983311, at
*3-4 (D. Nev. Dec. 10, 2014) (unpublished); Lee v. State, 258 So.
3d 1297, 1299-1300 (Fla. 2018); State v. Shelley, 176 So. 3d 914,
1

App. 3
The
detective
scanned
through
the
advertisements on the Casual Encounters webpage
and discovered an advertisement, later confirmed to
have been posted by Stoltz, entitled: “Can I CUM
on you? Quick shot and heavy load! - m4w - 34
(northern va).” Commonwealth’s Ex. 1 (emphasis
in original).2 Accompanied by a picture of an erect
penis, the pertinent part of Stoltz’s advertisement
stated:
Sorry for the repost - but too many flakes...
Still so horny - blue balls type weekend. I
really really need to shoot my load and would
love to shoot it on someone who is turned on
by cum shots, cum fetishes, or just loves to
get cummed on. Also anyone that is curious
about it too... I can be quick - or not - your
call.

916-17 (Fla. 2015); State v. Keller, No. COA17-1318, ___ S.E.2d
___, ___, 2019 WL 2180368, at *1-2 (N.C. Ct. App. May 21,
2019); State v. Racus, 433 P.3d 830, 832-33 (Wash. Ct. App.),
review denied, 441 P.3d 828 (Wash. 2019) (unpublished table
decision); State v. Solomon, 419 P.3d 436, 438-40 (Wash. Ct.
App. 2018). Responding to this fact, Congress recently passed
the “Allow States and Victims to Fight Online Sex Trafficking
Act of 2017.” See Pub. L. No. 115-164, 132 Stat. 1253 (2018)
(codified as amended at 18 U.S.C. §§ 1591(e), 1595, 2421A and
47 U.S.C. § 230(e)). In 2018, Craigslist removed the entire
“personals” section, which included the Casual Encounters
webpage, from its website. See Green v. Commonwealth, No.
2017-CA-000663-MR, 2018 WL 4847083, at *1 n.2 (Ky. Ct. App.
Oct. 5, 2018) (unpublished).
Quotations from Stoltz’s advertisement and from the
messages between Stoltz and Annie are repeated verbatim
herein without alterations.
2

App. 4
I will cum wherever you want me to -->
ass/chest/face/mouth/pussy/stomach/feet, etc.
You will need to host at your place -- or your
office -- car.
Safe, VERY clean, normal, and cute whiteguy here. Athletic physique with a good sized
and very cum filled cock. Discrete.
Id. (alterations in original).
Stoltz’s advertisement caught the detective’s
eye because some advertisements on that webpage
(he did not specify what percentage) would expressly
say: “I’m looking for an adult, or I’m looking for an
age range . . . twenty to twenty-five, or eighteen and
over.” 1 J.A. at 329. The “vagueness” of Stoltz’s
advertisement drew the detective’s attention based
on his “experience working these types of
investigations” and the fact that “[t]here was
nothing specifically asking for an adult.” Id. Having
“responded
and
looked
at
thousands”
of
advertisements on Craigslist and similar websites,
the detective had “never seen” an advertisement that
explicitly said an adult was looking for sex with a
minor. Id. at 329-30. Pedophiles are never that
direct, the detective explained, because “Craigslist
would remove the ad immediately” if it expressly
sought out a minor. Id. at 330.
The
detective
responded
to
Stoltz’s
advertisement, posing as 13-year-old Annie and
stating that she was not in school that day. When
Annie offered to send a photograph of herself, Stoltz
responded that he would love to see one. The
detective sent Stoltz a picture of the face of an adult
Fairfax County animal control officer. Pictures of the
animal control officer, a 25-year-old with a youthful

App. 5
face, had been used in prior undercover
investigations. The email conversation through
Craigslist continued with Annie asking what Stoltz
wanted to do. Annie also asked Stoltz whether it was
okay that she could not drive. Stoltz responded that
he would “like to do what I said in my post, but am
open. What do you have in mind?” Commonwealth’s
Ex. 2. Regarding Annie not being able to drive, he
stated, “I can drive to you so no worries.” Id.
The conversation moved from the Craigslist
emails to Yahoo Messenger when Stoltz provided
Annie with his Yahoo email address. During that
portion of the conversation, Annie further explained
that her parents were out of town and that she was
home alone and out of school. When Stoltz asked her
why she had looked on Craigslist, Annie responded
that she was “curious and stuff,” to which Stoltz
responded, “I hear taht.” Commonwealth’s Ex. 3.
When Annie asked Stoltz again what he was
planning, Stoltz responded, “I’m really open - but if
you’re curious maybe I can help?” Id. Stoltz asked
Annie, “do you like kissing?” and “have you kissed a
boy before?,” to which Annie responded in the
affirmative. Id. Annie then asked Stoltz “wut else”
he had in mind, and Stoltz asked Annie if she
“like[d] being touched,” to which Annie responded, “i
haven’t been touched b4 sorry.” Id. Annie asked
again what the two were “going to do,” and Stoltz
responded, “well - i like kissing and touching - would
you be interested in touching me?” Id. When Annie
asked Stoltz for further clarification, Stoltz
responded, “i’d like to kiss you and get naked with
you. then touch your body all over and you can touch
me all over too.” Id.

App. 6
Annie then asked for a phone call with Stoltz
to ensure that he was real. Stoltz was initially
reluctant to give out his phone number but
eventually gave Annie an anonymous phone number
through Google Voice that could not be traced back
to his phone. The detective had a female colleague,
mimicking the voice of a young female, talk to Stoltz
on the phone while posing as Annie. The two agreed
to meet at a Walmart near where Annie supposedly
lived.
Stoltz arrived at Walmart at the appointed
time, and the detective and his team observed Stoltz
walking near the area where Stoltz had arranged to
meet Annie. Stoltz also appeared to be on his phone,
and the detective, still posing as Annie, was
continuing to receive text messages from Stoltz
during this time. When Stoltz eventually left the
Walmart parking lot, the detective and his team
initiated a traffic stop. When the detective told Stoltz
why he was there, Stoltz said that he knew nothing
about any contact with Annie and that he was not
there to meet anybody. Stoltz gave the detective
permission to look through his phone, but the
detective found nothing relevant and concluded that
the phone’s browsing history had been deleted. The
detective did not arrest Stoltz at that time. Shortly
thereafter, the detective sent an administrative
subpoena to Craigslist, which confirmed that the IP
address associated with the original advertisement
was tied to Stoltz’s home. The detective then
obtained a search warrant for Stoltz’s home and
eventually arrested Stoltz.
Stoltz was charged with one count of computer
solicitation of a minor and one count of attempted
indecent liberties with a child. His first trial ended

App. 7
in a hung jury. At Stoltz’s second trial the court
gave,
at
Stoltz’s
request
and
over
the
Commonwealth’s objection, an instruction explaining
the reason-to-believe concept found in the computersolicitation statute. The instruction defined
“[r]eason” as “a faculty of the mind by which it
distinguishes truth from falsehood, good from evil,
and which enables the possessor to deduce
inferences from facts or from propositions.” R. at
234. During its deliberations, the jury asked for
clarification as to whether the phrase “reason to
believe” in the statute meant that Stoltz had to “find
the reason credible.” Id. at 218 (emphasis in
original). The trial court referred the jury to the
instructions. See id. The jury thereafter convicted
Stoltz of computer solicitation of a minor but found
him not guilty of attempted indecent liberties with a
child.
Stoltz moved for a new trial. He claimed that
the jury’s question, along with post-verdict
conversations with a juror, had revealed that the
statute’s use of the phrase “reason to believe,” Code §
18.2-374.3(C), was unconstitutionally vague in
violation of his Fourteenth Amendment rights and
overbroad in violation of his First Amendment
rights. The trial court denied the motion, and Stoltz
appealed to the Court of Appeals, raising the same
constitutional arguments. In an unpublished
opinion, the Court of Appeals found that Stoltz had
waived any facial challenge to the statute at oral
argument and that his remaining as-applied
challenges
were
meritless.
See
Stoltz
v.
Commonwealth, Record No. 0352-17-4, 2018 WL
3027015, at *1 n.1, *3-5 (Va. Ct. App. June 19, 2018).
Stoltz now appeals to us.

App. 8
II.
Stoltz argues that the Court of Appeals erred
in not finding Code § 18.2-374.3(C) unconstitutional,
both facially and as applied, under the First and
Fourteenth Amendments of the United States
Constitution. The challenged statute states, in
relevant part:
It is unlawful for any person 18 years of age
or older to use a communications system . . .
for the purposes of soliciting, with lascivious
intent, any person he knows or has reason to
believe is a child younger than 15 years of
age to knowingly and intentionally [engage
in various sexual acts].
Code § 18.2-374.3(C) (emphasis added). Stoltz argues
that the phrase “reason to believe,” id., renders this
statute unconstitutionally vague and overbroad. We
disagree.
A.
The Court of Appeals found that Stoltz had
“abandoned” any argument regarding facial
unconstitutionality in his oral argument before that
court and had thus limited himself to an as-applied
challenge to the statute. See Stoltz, 2018 WL
3027015, at *1 n.1. Although Stoltz claims that he
did not abandon his facial challenge, he does not
assign error to the abandonment finding of the Court
of Appeals. See Rule 5:17(c)(1)(i). As we have
recently emphasized, “[a]n assignment of error is not
a mere procedural hurdle an appellant must clear in

App. 9
order to proceed with the merits of an appeal.
Assignments of error are the core of the appeal.”
Forest Lakes Cmty. Ass’n v. United Land Corp. of
Am., 293 Va. 113, 122 (2017) (emphasis in original).
“With the assignment of error, an appellant should
‘lay his finger’ on the alleged misjudgment of the
court below.” Id. at 122-23 (quoting Martin P. Burks,
Common Law and Statutory Pleading and Practice §
425, at 827 (T. Munford Boyd ed., 4th ed. 1952)). In
this way, “[a] properly aimed assignment of error
must ‘point out’ the targeted error and not simply
take ‘a shot into the flock’ of issues that cluster
around the litigation.” Id. at 123 (citation omitted).
To mount a successful facial challenge, “the
challenger must establish that no set of
circumstances exists under which the [statute in
question] would be valid,” as opposed to an asapplied challenge, in which the challenger alleges
“that the [statute in question] is unconstitutional
because of the way it was applied to the particular
facts of [his] case.” United States v. Salerno, 481 U.S.
739, 745 & n.3 (1987). Given Stoltz’s comingling of
facial and as-applied concepts, however, we will
assume without deciding that both theories are
subsumed in his assignment of error. Doing so,
however, does not change the result. Neither his
void-for-vagueness challenge nor his overbreadth
challenge has any legal merit.
B.
“[T]he void-for-vagueness doctrine requires
that a penal statute define the criminal offense with
sufficient definiteness that ordinary people can
understand what conduct is prohibited and in a

App. 10
manner that does not encourage arbitrary and
discriminatory enforcement.” Beckles v. United
States, 137 S. Ct. 886, 892 (2017); see also Johnson v.
United States, 135 S. Ct. 2551, 2556 (2015). “Void for
vagueness simply means that criminal responsibility
should not attach where one could not reasonably
understand that his contemplated conduct is
proscribed.” United States v. National Dairy Prods.
Corp., 372 U.S. 29, 32-33 (1963) (emphasis added).
When considering a vagueness challenge, a court
will assess whether the statute at issue
is vague “not in the sense that it requires a
person to conform his conduct to an
imprecise but comprehensible normative
standard, but rather in the sense that no
standard of conduct is specified at all.” Such
a provision simply has no core. This absence
of any ascertainable standard for inclusion
and exclusion is precisely what offends the
Due Process Clause.
Smith v. Goguen, 415 U.S. 566, 578 (1974) (citation
omitted). The general requirement that a criminal
statute contain a mens rea element “is not to say
that a defendant must know that his conduct is
illegal before he may be found guilty” because all he
really must know are “‘the facts that make his
conduct fit the definition of the offense,’ even if he
does not know that those facts give rise to a crime.”
Elonis v. United States, 135 S. Ct. 2001, 2009 (2015)
(citation omitted). Nor does a statutory standard lose
its constitutional moorings by drawing some rather
fine lines. After all, “the law is full of instances
where a man’s fate depends on his estimating rightly

App. 11
. . . some matter of degree.” Johnson, 135 S. Ct. at
2561 (quoting Nash v. United States, 229 U.S. 373,
377 (1913)).
Code § 18.2-374.3(C) does not run afoul of
these settled vagueness principles. The phrase
“knows or has reason to believe,” Code § 18.2374.3(C), is not ambiguous. A multitude of federal
courts have found similar language impervious to
vagueness challenges.3 Moreover, many similar
provisions appear in the Virginia Code,4 and we have
3 See, e.g., Gorin v. United States, 312 U.S. 19, 27-28 (1940)
(“intent or reason to believe”); United States v. Mena, 342 Fed.
Appx. 656, 658 (2d Cir. 2009) (“reason to believe”); United
States v. Bewig, 354 F.3d 731, 737-38 (8th Cir. 2003) (“knowing,
or having reason to know”); Rojas-Garcia v. Ashcroft, 339 F.3d
814, 822-23 (9th Cir. 2003) (“reason to believe”); United States
v. Saffo, 227 F.3d 1260, 1268-70 (10th Cir. 2000) (“knowing or
having reasonable cause to believe” and other “essentially
identical” mens rea requirements in federal statutes); United
States v. Biro, 143 F.3d 1421, 1429-30 (11th Cir. 1998) (“having
reason to know”); United States v. Wuliger, 981 F.2d 1497,
1503-04 (6th Cir. 1992) (“reason to know”); United States v.
Featherston, 461 F.2d 1119, 1120-23 & n.1 (5th Cir. 1972)
(“knowing or having reason to know”).

Many Virginia criminal statutes use the phrase “reason to
believe.” See Code §§ 3.2-3214, -6588, 4.1-304(A), -306(A), 18.264.1, -109, -180, -308.2:2(M), -331, -348, -349, -371.2, -371.3, 44110, 46.2-616, 54.1-2967, -4103, 57-57(B). Others use the
similar phrase “reason to know.” See Code §§ 2.2-3103.1, 4.1306(A1), -332(A), 18.2-46.2(A), -51.1, -55(B), -57(C)-(E), -57.01, 57.02, -186.4, -190.3, -192, -370.2, -370.3(A), -370.4(A), 370.5(A), -371.4, -386.2(A), -391(A), -433.2(1), 19.2-62(A)(3)-(4),
-63, 23.1-225(C)(1), 58.1-3(F), -1033(1), -1036(B), -2273, 2299.10(6), 59.1-293.11(C), -332(B). A multitude of criminal
statutes in the United States Code also use these phrases. See,
e.g., 10 U.S.C. § 894 art. 94(a)(3); 15 id. §§ 158, 2614; 16 id. §§
63, 98, 117c, 127, 170, 204c, 374, 395c, 404c-3, 408k, 4306(a)(2);
18 id. §§ 48, 231, 491, 793, 1039, 1384, 1521, 1992(a)(4), 2251,
4

App. 12
never questioned their constitutionality. We
similarly find no fault with Code § 18.2-374.3(C).
The statute advances its goal of combating the
sexual exploitation of children by unmistakably
saying that no adult may use a communications
system for the purpose of soliciting an individual
that “he knows or has reason to believe is a child
younger than 15 years of age,” id. We believe that an
ordinary person would understand what conduct this
statute prohibits. This conclusion effectively ends
the matter. Only if people of “common intelligence
must necessarily guess at [the statute’s] meaning
and differ as to its application” will a statute be
deemed void for vagueness. Connally v. General
Constr. Co., 269 U.S. 385, 391 (1926).
Stoltz had reason to believe that Annie was
younger than 15. After openly soliciting a sexual
encounter without expressing or even implying any
disinterest in juveniles, Stoltz received a response
from Annie, who informed him that she was “only
13” and that she was “off of school” that day.
Commonwealth’s Ex. 2. She immediately followed
with, “if i’m 2 young tahts ok and i wont’ bother u.”
Id. When Stoltz responded, “23 isn’t too young,”
Annie reaffirmed: “13 not 23 hehe.” Id. Annie further
informed Stoltz that she was “home alone” because
her parents were out of town. Id. She stated that it
was the “first time they’ve let me stay alone” and
that there had been “no school today” “or yestreday.”
Commonwealth’s Ex. 3. When Annie sent Stoltz the
picture of the animal control officer, Stoltz replied,
“you’re very cute! :),” Commonwealth’s Ex. 2, not
“you’re cute but you look too old to be 13.” The jury
2511(1), 2512; 42 id. §§ 1320c-6(a)(2), 2277; 47 id. § 605(e)(4);
49 id. § 60123(d)(2)(B); 50 id. § 783(a).

App. 13
saw this picture, along with all of the
communications between Stoltz and Annie, and
heard the animal control officer testify in person.
These facts, in aggregate, do not prove that Stoltz
actually knew that Annie was underage. But they
amply demonstrate that he had reason to believe that
she was.5 At the moment that Stoltz obtained such
reason to believe, his use of the Internet for the
purpose of solicitation became a crime.6
C.
We also find no merit in Stoltz’s First
Amendment challenge to the statute. Overbreadth
under the First Amendment is a doctrine of “last
resort,” and its “limited” function

Though it was unnecessary for the trial court to give a specific
instruction on the reason-to-believe concept, the court did just
that at Stoltz’s insistence and over the Commonwealth’s
objection. The jury was instructed that, under Virginia law,
“[r]eason is a faculty of the mind by which it distinguishes
truth from falsehood, good from evil, and which enables the
possessor to deduce inferences from facts or from propositions.”
R. at 234. Given our holding, we need not address the trial
court’s decision to give this instruction.
5

We survey the factual circumstances of Stoltz’s case not to
imply that Code § 18.2-374.3(C) is free from fatal constitutional
vagueness “merely because there is some conduct [Stoltz’s in
particular] that clearly falls within the provision’s grasp,”
Johnson, 135 S. Ct. at 2561. Instead, we believe that the
linguistic range of the reason-to-believe standard in the statute
is understandable to ordinary people, including Stoltz, and that
his specific reasons to believe that Annie was underage were
plainly evident from the record.
6

App. 14
attenuates as the otherwise unprotected
behavior that it forbids the State to sanction
moves from ‘pure speech’ toward conduct and
that conduct — even if expressive — falls
within the scope of otherwise valid criminal
laws that reflect legitimate state interests in
maintaining comprehensive controls over
harmful,
constitutionally
unprotected
conduct. Although such laws, if too broadly
worded, may deter protected speech to some
unknown extent, there comes a point where
that effect — at best a prediction — cannot,
with confidence, justify invalidating a
statute on its face and so prohibiting a State
from enforcing the statute against conduct
that is admittedly within its power to
proscribe.
Broadrick v. Oklahoma, 413 U.S. 601, 613-15 (1973).
“[I]t has never been deemed an abridgement of
freedom of speech or press to make a course of
conduct illegal merely because the conduct was in
part initiated, evidenced, or carried out by means of
language, either spoken, written, or printed.”
Giboney v. Empire Storage & Ice Co., 336 U.S. 490,
502 (1949). Thus, “particularly where conduct and
not merely speech is involved, we believe that the
overbreadth of a statute must not only be real, but
substantial as well, judged in relation to the
statute’s plainly legitimate sweep.” Broadrick, 413
U.S. at 615.
Code § 18.2-374.3(C) does not target speech,
but conduct — specifically the use of a
communications system (in this case, the Internet)
for the purpose of soliciting a minor. The act of using

App. 15
a communications system is the actus reus of the
crime, while the purpose of soliciting the child is the
mens rea. See Commonwealth v. Murgia, 297 Va.
310, 320-21 (2019) (addressing subsection D of the
same statute); Dietz v. Commonwealth, 294 Va. 123,
134-35 (2017) (addressing subsection B of the same
statute). The fact that Stoltz engaged in this conduct
through the means of speech is only relevant if the
statute sweeps in substantial amounts of protected
speech in comparison to its legitimate proscription.
Nothing in the statute criminalizes a substantial
amount of protected speech when “judged in relation
to the statute’s plainly legitimate sweep,” Broadrick,
413 U.S. at 615. Nor do any of Stoltz’s arguments
“justify invalidating a statute on its face and so
prohibiting a State from enforcing the statute
against conduct that is admittedly within its power
to proscribe,” id. Thus, Stoltz’s facial overbreadth
challenge must also fail.
III.
Finding no merit in Stoltz’s vagueness or
overbreadth challenges to Code § 18.2-374.3(C), we
affirm the judgment of the Court of Appeals. This
order shall be published in the Virginia Reports and
certified to the Court of Appeals of Virginia and the
Circuit Court of Fairfax County.
A Copy,
Teste:
/s/
Douglas B. Robelen, Clerk

